<html>
<title> - CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT</title>
<body><pre>[Senate Hearing 108-341]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-341

          CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1601

TO AMEND THE INDIAN CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT 
 TO PROVIDE FOR THE REPORTING AND REDUCTION OF CHILD ABUSE AND FAMILY 
               VIOLENCE INCIDENCES ON INDIAN RESERVATIONS

                               __________

                           SEPTEMBER 24, 2003
                             WASHINGTON, DC




89-643              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
    S. 1601, text of.............................................     2
Statements:
    Brunoe, Garland, chairman, Confederated Tribes of the Warm 
      Springs Reservation of Oregon..............................    27
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Cross, Terry, executive director, National Indian Child 
      Welfare Association........................................    29
    Grim, Charles W., director, Indian Health Service, Department 
      of Health and Human Services...............................    19
    Hopper, Woodrow, acting deputy assistant secretary for 
      management--Indian Affairs, Department of the Interior.....    18
    Lewis, Mark, director, Guidance Center, Hopi Tribes of 
      Indians....................................................    25
    Perez, Jon, IHS Division of Behavioral Health................    19

                                Appendix

Prepared statements:
    Brunoe, Garland..............................................    39
    Cross, Terry (with attachment)...............................    42
    Grim, Charles W. (with attachment)...........................    70
    Hopper, Woodrow (with attachment)............................    80
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................    39
    Taylor, Jr., Wayne, chairman, Hopi Tribe (with attachment)...    92
    Toulou, Tracy, director, Office of Tribal Justice, Department 
      of Justice (with attachment)...............................   100

 
          CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
485, Russell Senate Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The committee will be in order.
    Welcome to the committee's hearing on a bill to reauthorize 
the Indian Child Protection and Family Violence Prevention Act, 
S. 1601, which I was happy to introduce along with my friend 
and colleague, Senator Inouye. Senator Inouye won't be here 
this morning. We are both also on Appropriations and he is 
still in the appropriations hearing. Senators Johnson and 
Domenici have also cosponsored this bill.
    Prepared Statement of Sen. Inouye appears in appendix.
    [Text of S. 1601 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Today, we will receive testimony on continued 
incidences of child abuse, the need for tribal infrastructure 
for managing child abuse cases, and whether there is proper 
interagency cooperation and character investigations for 
individuals having regular contact with Indian children.
    There is a chart here on the right and as you can see from 
that chart, studies indicate violence and abuse in Indian 
country occurs at rates that are higher than other populations. 
At one time, the rate of violence in Indian country rose by 18 
percent while at the same time, it decreased by 8 percent for 
the general population.
    On chart 2, these percentages translate into very startling 
figures. The numbers of Indian children victimized were over 
3,000 out of every 100,000 children which is far too many. In 
fact one is far too many.
    Enacted in 1990, the act established extensive reporting 
requirements, mandated certain character investigations and 
authorized funding for prevention and treatment programs. The 
bill before us today is designed to improve tribal capacity and 
to identify the impediments to reducing child abuse.
    S. 1601 promotes cultural perspectives by giving 
consideration to tribal programs which incorporate traditional 
healing methods. Preventing child abuse also requires that 
individuals having regular contact with children are adequately 
screened prior to contact. S. 1601 will expand the scope of 
character investigations to contractors and volunteers in 
addition to employees who have regular contact with Indian 
children making its scope consistent with other Federal law.
    With that, I look forward to hearing the testimony from our 
witnesses and we will go ahead and start with pane one which 
will be Woodro Hopper, acting deputy assistant secretary for 
Management, Indian Affairs, Department of the Interior and 
Charles Grim, director, Indian Health Service. We will take you 
in that order with Mr. Hopper first. Your complete written 
testimony will be included. If you would like to deviate from 
that written testimony, that will be fine.

STATEMENT OF WOODROW HOPPER, ACTING DEPUTY ASSISTANT SECRETARY 
   FOR MANAGEMENT--INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Hopper. I am pleased to be here today to provide the 
Department's testimony supporting S. 1601, a bill to amend the 
Indian Child Protection and Family Violence Prevention Act to 
provide for the reporting and reduction of child abuse and 
family violence incidents on Indian reservations.
    The Department of the Interior supports expansion of the 
number and breadth of employment positions that will be subject 
to the minimum standards of character under the act. The 
Department of the Interior recommends a review not only of 
appropriate State criminal history repositories but also tribal 
criminal history repositories.
    We also support inclusion of the certification requirements 
for education employees who are responsible for child 
protection at residential and day schools. Certification is 
critical as almost all Bureau of Indian Affairs [BIA] funded 
schools contract to provide important services including mental 
health and other social services to Indian students. The 
Department of the Interior supports conducting a study to help 
identify and reduce the barriers to implementation of the Act, 
with particular emphasis on tribal, Federal and State 
investigations and prosecution of Indian and non-Indian 
abusers.
    The study will allow the Office of Law Enforcement Services 
in the BIA to identify efforts that better serve Indian 
communities and improve the implementation of the President's 
citizen centered government initiative. However, we 
respectfully request additional time in which to complete the 
more comprehensive report to better identify incidences of 
child abuse and family violence and steps to improve 
intergovernmental and interagency cooperation.
    The BIA, in cooperation with Indian tribes, must continue 
to develop more awareness at the local level to prevent child 
abuse. We must work together to ensure that abusers do not have 
access to children and that any incidences of abuse are 
prosecuted.
    This concludes my statement. I want to thank you for 
introducing this legislation and for your support for the 
protection of our future generations. I would be happy to 
answer any questions you may have.
    [Prepared statement of Mr. Hopper appears in appendix.]

STATEMENT OF CHARLES W. GRIM, DIRECTOR, INDIAN HEALTH SERVICE, 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES, ACCOMPANIED BY JON 
       PEREZ, DIRECTOR, IHS DIVISION OF BEHAVIORAL HEALTH

    Mr. Grim. Good morning, Mr. Chairman and members of the 
committee.
    I am Dr. Charles W. Grim, director of the Indian Health 
Service. I have accompanying me today, Dr. Jon Perez, director 
of our IHS Division of Behavioral Health. I will be making the 
opening statement for the Department and Dr. Perez is here to 
help with additional questions, should the committee have them.
    I am pleased to have the opportunity to testify on behalf 
of Secretary Thompson on S. 1601, the Indian Child Protection 
Family Violence Prevention Act of 2003. With your concurrence, 
I will submit my written testimony for the record and just 
speak briefly.
    The Chairman. It will be included in the record.
    Mr. Grim. Thirteen years ago, this committee authorized the 
Indian Child Protection and Family Violence Prevention Act 
because of the incidences of abuse of children on Indian 
reservations was underreported and because many perpetrators of 
sexual abuse of children on Indian reservations were Federal 
Government employees and because funds were inadequate to meet 
the increasing needs for mental health treatment and counseling 
for victims of child abuse and family violence. This act was 
passed to help preserve the continued existence and integrity 
of Indian tribes by protecting American Indian and Alaska 
Native children and families.
    Thirteen years later, these reasons, while somewhat 
diminished, are still valid reasons to reauthorize the act. 
Indian country has higher rates of child abuse and domestic 
violence than other population groups in the United States. 
Child abuse and family violence are crimes and there are 
tribal, State and Federal laws that address the criminal 
aspects of these behaviors.
    The Indian Child Protection and Family Violence Prevention 
Act enables us to undertake treatment and prevention program 
activities to reduce the risk factors associated with child 
abuse and family violence. The available statistics you 
presented briefly in your opening comments show an alarmingly 
high level of child abuse and family violence in Indian country 
and this Act gives us an opportunity to do something about it. 
Abuse and neglect have short and long term consequences and 
long term means a lifetime of physical and psychological scars.
    Experiencing abuse, neglect or violence or even its threat 
increases the risk of the victim becoming a perpetrator of 
violence. Children who have experienced such abuse are also at 
increased risk for experiencing the adverse health effects and 
behaviors as adults that include smoking, alcoholism, drug 
abuse, physical inactivity, obesity, depression, suicide, 
sexual promiscuity, and certain chronic diseases and being a 
perpetrator of abuse as well.
    As we all know, these health effects and behaviors also are 
risk factors for many other diseases and chronic conditions. 
The consequences of child abuse and neglect can be seen 
throughout the life cycle. Among our youth who are 
incarcerated, there are a large number who are victims of child 
abuse and neglect.
    We must protect our children and our families from violence 
and must provide treatment if we are to break the cycle. There 
is no simple solution. There are many factors commonly 
associated with abuse and neglect but the presence of these 
factors alone does not guarantee abusive situations will 
develop. If we can reduce the risk factors, we can also reduce 
the incidence of child abuse and family violence and can break 
the cycle of abuse and its consequences.
    The Indian Health Service has been a partner with five 
tribes in funding grants to establish programs for child 
protective services, child abuse prevention, family violence 
prevention and abuse prevention and identification education 
programs. The programs developed from these grants incorporated 
culturally relevant aspects of prevention programs that have 
shown positive effectiveness in reducing abuse and violence. 
Programs of home visiting and family intervention, parent 
education and school based programs for the prevention of child 
sexual abuse appear to increase the number of children more 
likely to use protective strategies.
    The IHS also funded the development of a Child Protection 
Technical and Training Manual for use in Indian country. In 
addition, the Administration for Children and Families, Office 
of Child Abuse and Neglect within the Department of HHS funded 
the Making Medicine Project that has trained 150 professionals 
on providing culturally sensitive treatment to Indian victims 
of child physical and sexual abuse. These professionals are 
working with American Indian and Alaska Native communities 
around the country.
    The IHS has also established an interagency agreement with 
the Department of Justice, Office of Victims of Crime for a 
four year training program for IHS physicians and nurse 
practitioners in the application of forensic and telemedicine 
equipment in child sexual abuse cases.
    In addition, as required by the current and the proposed 
act, the IHS published an interim final rule that established 
minimum standards of character for IHS employees, volunteers 
and contractors who are in positions identified by the IHS as 
involving regular contact or control over American Indian and 
Alaska Native children.
    The rate of child abuse and family violence in Indian 
country is high and is unacceptable. It happens for many 
reasons but it doesn't happen in isolation from the economic 
and social problems that are faced in Indian country resulting 
in poverty, a lack of resources, limited opportunity and a 
sense of hopelessness and isolation at times.
    The reauthorization of the Indian Child Protection and 
Family Violence Prevention Act as I mentioned earlier will 
continue to help us protect our children and treat the 
survivors of family violence and abuse. It will take further 
investment and a broad range of Federal and tribal programs to 
achieve the goal of prevention. The Department and IHS are 
committed to working with you to achieve those goals of 
prevention.
    In conclusion, the Department fully supports enactment of 
S. 1601. I would be pleased to answer any questions you or any 
other members of the committee might have.
    Thank you.
    [Prepared statement of Dr. Grim appears in appendix.]
    The Chairman. Thank you both, Mr. Hopper and Dr. Grim.
    It really kind of amazes me when we look at the statistics 
dealing with child abuse. Historically, Indian people were the 
most loving families you could ever ask for where they all 
participated in raising their children. They are literally 
known for that kind of loving family and yet we have some of 
the highest child abuse in the country. I can only attribute it 
to some of the factors you mentioned, drugs, alcohol and so on, 
the things that go with a depressed economy and a depressed 
society. Sometimes that anger turns inward.
    Mr. Hopper, I am interested in the progress the Department 
has made and its experience over the past 8 years in 
implementing the act. First of all, let me ask is there a 
backlog now of security checks of people?
    Mr. Hopper. My understanding as of last evening is there is 
no backlog of security checks.
    The Chairman. There is not. Explain this to me. Is the 
Security Division now in two parts with one part being in 
Albuquerque and one part being in Washington?
    Mr. Hopper. That is somewhat correct, sir. The Office of 
Indian Education has its own separate Personnel Security Office 
right now that is located in Albuquerque. The other entities 
within the BIA have a separate office.
    The Chairman. What does one do that the other one does not 
do?
    Mr. Hopper. They both perform similar duties. One office 
concentrates primarily on the 5,000 or so educators and people 
who work in the schools, while the other office concentrates on 
the employees who work in the trust and tribal services related 
programs.
    The Chairman. It works better to have one group in 
Albuquerque?
    Mr. Hopper. Under the reorganization we are going through 
right now, they will be merged into one unit and will be 
located, at the moment, in Albuquerque, NM, within in the 
Office of Law Enforcement Services.
    The Chairman. Currently the act requires all authorized 
positions within the Department to have regular contact with 
children to undergo a character investigation. What is the 
Department of the Interior's process for determining whether a 
position requires the investigation or not? Is it direct 
contact with the children?
    Mr. Hopper. Yes; it is. The security personnel in 
conjunction with the program side of the house determine which 
positions require an investigation. However, when you look at 
our education programs, virtually every position has the 
preponderance of contact with children and virtually every 
position requires a character background checks, whether it is 
a janitor or a school principal. We have been doing that now 
for many, many years.
    The Chairman. In addition to Indian students lot of the 
tribal schools now have non-Indian children in the schools 
because their parents employees of the tribe or something. In 
the process you describe, what governs the positions outside 
the BIA Office of Indian Education? Say it is a non-Indian kid 
that is enrolled in that school, an Indian school.
    Mr. Hopper. Would you mind restating the question?
    The Chairman. Many of the schools now on reservations have 
mostly Indian children but have some non-Indian children in the 
schools because their parents are employees of the tribe or 
something of that nature. They are isolated from the city, so 
they have them in the same schools with Indian children. How do 
you interact with them? What governs the positions dealing with 
kids that may not be Indian but are in Indian schools who may 
have been abused?
    Mr. Hopper. It is the employees that have the background 
check, not the children. Are you asking if something happens to 
one of the children?
    The Chairman. Yes.
    Mr. Hopper. The reporting process for any child in the 
school would be the same.
    The Chairman. The same?
    Mr. Hopper. Yes; I would have to defer to one of the staff 
to give you an idea of the number of non-Indian children that 
may be attending a BIA school.
    The Chairman. I don't need the numbers, that is all right.
    In 1998, the Office of Inspector General conducted surveys 
of character investigations for certain area offices of the 
Office of Indian Education and there appears to be a 
significant delay in conducting character investigations. Have 
you taken any steps to try to speed up that or to improve the 
process?
    Mr. Hopper. What happened was, the Office of Indian 
Education established within their own ranks, an office to deal 
with personnel security and that backlog has been reduced. They 
are expeditiously processing the background investigations.
    The Chairman. The act also requires the Department to 
establish an Indian Child Resource and Family Services Center 
with a multidisciplinary team. What is the progress of that?
    Mr. Hopper. The BIA does use the Child Protection Team 
concept if that is what you are referring to in the event that 
we have an incident. We have a multidisciplinary team that 
works in conjunction with Indian Health Service, the Justice 
Department, law enforcement, and whoever else is necessary.
    The Chairman. So there is not a physical center where they 
work together?
    Mr. Hopper. No, sir; it is not a center.
    The Chairman. The act also required the Department to 
conduct a feasibility study for the Central Registry to collect 
data and reports on child abuse. I understand that was not 
established but there are apparently some alternatives and 
resources for tracking child abuse in Indian country, are there 
not?
    Mr. Hopper. I don't have the answer to that. I can provide 
it to you or call on BIA staff who may know.
    The Chairman. Bill, do you know? If somebody does know, 
otherwise I would have you provide that to me. Identify 
yourself for the record, Bill.
    Mr. Mehojah. I am Bill Mehojah, director, Office of Tribal 
Services.
    Presently, we do not have a central registry in place. Any 
reports of child abuse incidents are reported to law 
enforcement and they maintain a database or system of counting 
those cases but we do not have a central registry.
    The Chairman. Then how do you monitor a perpetrator moving 
from one jurisdiction to another when he gets a little worried 
that somebody may uncover what he has been doing and he moves 
to someplace else? Mr. Hopper, if you know that?
    Mr. Hopper. If we find a perpetrator and we identify the 
individual as an employee, we will take immediate action to put 
him on administrative leave until we can perform the due 
process. That is when the Department of Justice steps in if 
they are going to prosecute. The employee could be fired and 
incarcerated. They could never be reemployed with the Bureau of 
Indian Affairs.
    If you are asking if there is any possibility they could 
somehow be employed with another agency at some later date, 
there is no second chance in BIA.
    The Chairman. There is no second chance, in other words.
    Mr. Hopper. There is no second chance in BIA, that is 
correct.
    The Chairman. They can't just be transferred as we have 
read about and seen in the news with some churches, for 
instance?
    Mr. Hopper. No; that does not happen. The individual 
isolated until such time that we either prosecute or remove 
them administratively.
    The Chairman. As I understand your testimony, you are 
pretty supportive of the bill, S. 1601?
    Mr. Hopper. Absolutely.
    The Chairman. We want to mark this bill in October and are 
kind of running out of time. As you know, we only have maybe 
another 6 weeks and we will be out of here for the year. If you 
have any suggestions of how we can improve the bill, if you 
would contact staff, I would certainly appreciate it because I 
would like to mark this up in October if we can.
    Mr. Hopper. Yes, sir.
    The Chairman. Dr. Grim, thank you for appearing today.
    What role does the Indian Health Service play in this whole 
child abuse investigation realm?
    Dr. Grim. We perform a number of services in the child 
abuse arena. We perform both clinical, forensic, supportive and 
training roles. Clinical services we provide involve direct 
assessment and treatment of those people who have been abused.
    The Chairman. Counseling programs or something of that 
nature?
    Mr. Grim. Yes; counseling services, as well as substance 
abuse and treatment services may be needed as a result of 
abuse. We also provide forensic exams when necessary in our 
facilities like the sexual assault forensic exams. We have 
protocols and procedures in place to deal with those and 
oftentimes our providers who are doing those exams are 
sometimes called upon to testify in judicial proceedings.
    We also provide supportive services for both families and 
victims in the way of social services, counseling, and other 
sorts of services that may be necessary. We also train IHS 
personnel across the clinical spectrum in identifying, 
assessing and treating victims of child abuse or their 
families.
    The Chairman. We are always talking about budget crunches 
around here as you know. Do you find the resources we provide 
adequate for you to do a first class job in this area?
    Mr. Grim. As always, Senator, we try to do the best we can 
with the resources that are available. The major issues that 
usually arise are often in our smaller facilities whenever a 
provider is called upon, has done a forensic exam perhaps and 
is called upon to testify in court. It pulls that provider away 
from a clinic for a half a day or a day, then we may experience 
decreased access to care in that given clinic. So it does place 
occasional burdens on us to deal with these issues but we 
always participate fully with the judicial system when 
necessary.
    The Chairman. I am sure everyone on this committee 
appreciates that. With regard to the traditional methods for 
restoring health and well being of Indian people, studies 
researched by our staff support incorporating cultural 
awareness into treatment methods. I understand the Indian 
Health Service has an agreement with the Substance Abuse and 
Mental Health Service Agency to promote that kind of culturally 
appropriate action, particularly with children's mental health 
services in Indian country. What type of research have you been 
conducting on whether that is a successful program or not?
    Mr. Grim. You are correct. We do have agreements going on 
with SAMHSA right now that have demonstrated successes in 
Indian country. Right now we have two Indian Health Service 
personnel detailed to SAMHSA, one in the Center for Substance 
Abuse Treatment, one in the Center for Substance Abuse 
Prevention to help better coordinate the resources of the two 
agencies going into Indian country.
    Specifically to the culturally appropriate care children's 
programs you brought up, we have something called the Circles 
of Care Grant Program. It is funded by SAMHSA and both IHS and 
SAMHSA are sharing technical assistance roles with tribes and 
also evaluation for the 16 tribal programs. We have been 
primarily providing technical assistance. SAMHSA has been 
providing evaluations through a contract with the University of 
Colorado's Health Science Center.
    We feel the evaluations provided thus far by Colorado have 
indicated a high success in helping tribal programs build the 
infrastructure to deal with these problems.
    The Chairman. Do you work with Dr. Jim Shore? Do you know 
that name? He is with the Medical Sciences Group at the 
University of Colorado but I know he has extensive background 
in Indian health, having worked on many reservations. I was 
just wondering about that.
    Mr. Perez. I know the name. I worked with Dr. Manson.
    The Chairman. Dr. Grim, I assume you also support this 
bill, do you not?
    Mr. Grim. Yes, sir; we fully support the bill.
    The Chairman. As with Mr. Hopper, if you can give us any 
suggestions on how to improve it, I would appreciate it because 
we are going to try to mark up the bill in October, as I 
mentioned.
    Mr. Grim. Yes, sir.
    The Chairman. Thank you for appearing.
    We will now go to our second panel which will be: Mark 
Lewis, director of the Guidance Center, Hopi Tribe; Garland 
Brunoe, chairman, Confederated Tribes of Warm Springs; and 
Terry Cross, executive director, National Indian Child Welfare 
Association from Portland.
    As with our previous panel, if you would like to submit 
your complete written testimony, that will be in the record and 
we will study that very carefully. If you would like to 
abbreviate or diverge from your written testimony, that would 
be fine.
    We will go ahead and start in the order that I mentioned 
with Mr. Lewis first.

STATEMENT OF MARK LEWIS, DIRECTOR, GUIDANCE CENTER, HOPI TRIBE 
                           OF INDIANS

    Mr. Lewis. Good morning, Chairman Campbell.
    My name is Mark Lewis and I am the administrative director 
for the Hopi Guidance Center, Behavioral Health and Social 
Services for the Hopi Tribe. I am here as a representative of 
the Hopi Tribe and Chairman Wayne Taylor, Jr., who could not be 
here today.
    The tribe wanted to convey to you that we are very pleased 
and honored to be invited to testify on S. 1601, the Indian 
Child Protection and Family Violence Prevention Act of 2003.
    Again, my name is Mark Lewis. I am a member of the Hopi 
Tribe, a professional social worker by trade and have been with 
the Guidance Center for 10 years, beginning as a mental health 
clinician and in the last 6 years, administering both 
behavioral health and social services which is responsible for 
child protective services and behavioral health of our tribe.
    The tribe wishes to describe to you our very real 
experience as a community and government in implementing the 
original act of 1990 and provide important input in advocacy 
that we believe will improve and strengthen this act that we 
believe is critical in effectively addressing child protection, 
child abuse prevention and treatment.
    We also wish to endorse the changes of the Act that 
Chairman Campbell has provided and we hope to provide other 
information that will also strengthen what you have proposed.
    As you may be aware, the Hopi Tribe has experienced 
directly the tragedy and immense pain associated with abuse of 
over 100 of our children, apparently beginning sometime in the 
last 1970's which continued until 1987 when a BIA school 
teacher was exposed as a prolific pedophile. As a result of 
this tragedy and other similar deplorable circumstances in 
Indian country, the original act was passed into law and became 
one of the primary vehicles for child protection and child 
abuse prevention and treatment in Indian country.
    We wish to convey that it also must be understood that 
tribes in general lacked services, programs and funding to 
effectively address child abuse issues prior to the passage of 
this act. S. 1601 will improve the act in a number of important 
ways. While we encourage Congress to make the changes outlined 
in the bill, we also ask that the Act provide adequate funding 
to help tribes carryout the original important functions of the 
act.
    First, the bill expands the current law's requirements for 
background checks to include volunteers and employees of other 
Federal entities beyond the Bureau and IHS. While the tribe 
supports this amendment, it is critical that while adding to 
the list of who must have a background check, actual funding 
must accompany not just the additions but the current 
background check requirements of the act.
    By way of background, the Hopi Tribe's law enforcement 
departments lack proper funding to adequately meet all of its 
law enforcement and investigative needs. We are still a Bureau 
operated law enforcement, so they lack adequate funding to 
properly meet all of its needs, investigative needs and 
investigation of child sexual abuse which many know is a 
specialized service.
    Today, the Hopi has just two investigators but that is for 
all of its criminal investigations across our on-reservation 
population of 8,000. The Hopi Guidance Center, the entity for 
which I am responsible, and also responsible for child 
protective services and mental health and substance abuse 
services on the Hopi Reservation has had to rely on periodic 
surplus from its Bureau funding base or find alternative 
funding streams for these background checks. There is no money 
coming as a result of the act to conduct these.
    As a governing board member, elected official of the Hopi 
Junior/High School they will attest as well that there is no 
funding to conduct the background checks on those teachers and 
we often rely on the surplus in order to be able to do those 
background checks.
    S. 1601 calls for the establishment of safety measures for 
child protection workers. We certainly support that but it is 
indicative of the training needs and other costs associated 
with implementing stronger systems and protocols and procedures 
in the provision of child protection and child abuse prevention 
as well as treatment.
    S. 1601 expands the definition of child abuse, mental 
health, emotional and well being and self esteem are important 
factors in the health of Indian children and children facing 
family violence should be able to access child abuse services. 
The Tribe agrees with the expanded definition. However, it is 
indicative of once again the need to provide adequate financial 
resources to investigators, to prosecutors, to courts who will 
see more of these cases coming through an already overcrowded 
door.
    S. 1601 replaces the feasibility study from the original 
act and Federal study of impediments to reducing child abuse. 
The feasibility study was conducted but the law doesn't reflect 
it. The tribe supports what you are doing with your proposal. 
We must study and understand the impediments to reducing abuse 
in order to make effective decisions at our tribal levels.
    S. 1601 emphasizes strengthening tribal infrastructure to 
develop effective tribal programs including databases for 
accessing current, national central registries for child abuse. 
The tribe supports not only this provision but the general 
building of administrative infrastructure in general. 
Management information systems and other related forms of 
technology must be funded as they are necessary these days and 
in the height of greater accountability for tribal programs to 
effectively administer our particular programs.
    While many of these wonderful mandates have come down, the 
BIA of Social Services which has the primary responsibility for 
social services in Indian country, never receives any increases 
as we all know. We need to be able to address those issues with 
this act as well as with the current provision of social 
services through the Bureau.
    In conclusion, the tribe urges the committee to move 
forward with the proposed amendments and also to ensure that 
its provisions, as well as those of the original act, receive 
full funding in order to meet all of these mandates.
    Once again, on behalf of the Hopi Tribe and Chairman 
Taylor, we thank you for this opportunity to present the issues 
and concerns of the Hopi Tribe.
    [Prepared statement of Mr. Taylor, Jr., appears in 
appendix.]
    The Chairman. Thank you for appearing here.
    Chairman Brunoe, we will go to you now.

STATEMENT OF GARLAND BRUNOE, CHAIRMAN, THE CONFEDERATED TRIBES 
           OF THE WARM SPRINGS RESERVATION OF OREGON

    Mr. Brunoe. Mr. Chairman, members of the committee, good 
afternoon.
    I am Garland Brunoe, the tribal council chairman of the 
Confederated Tribes of Warm Springs of Oregon.
    Our tribe thanks you for the opportunity to be here today 
to testify in support of S. 1601, the Indian Child Protection 
and Family Violence Prevention Reauthorization Act of 2003. 
This is extremely needed legislation.
    The Warm Springs Tribes located in north central Oregon 
share many of the modern characteristics of Indian reservation 
life. Our communities are rural and many Indian individual 
dwellings are isolated. Economic opportunities are limited and 
unemployment and poverty rates are persistently high. 
Unfortunately, so too are the rates of child abuse and family 
violence.
    About 4,100 people live on the Warm Springs Reservation, 
3,300 are tribal members and of them, 1,617 are younger than 18 
years of age. Last year, during 2002, 402 Warm Springs children 
were placed under the custody of our Child Protective Services 
by tribal court order. This year for 2003, we project 460 of 
our children will be placed in CPS custody, a 14-percent 
increase over 2002.
    These numbers are very distressing and our tribe is doing 
all we can to try to address this problem. Because we are 
exempt from Public Law 280 and our reservation is almost all 
tribal trust land, we have exclusive jurisdiction over child 
welfare issues, allowing us to fashion and run a program 
without competing State regulations.
    We try to work closely with the State of Oregon and are one 
of the few tribes in the Nation with a tribal/State Title 4(e), 
Foster Care Maintenance Payment Agreement that gives us much 
the same footing as a State for developing and maintaining a 
foster program.
    Even with our fairly comprehensive Child Protection Service 
Program, key jurisdictional differences do remain. Non-Indians 
in our reservation with criminal child abuse charges have to be 
referred to the State and Federal child abuse charges require 
calling in the FBI. Also, the local public schools that educate 
our children first report signs of child abuse to the State and 
the State then sends them along to us.
    S. 1601 seeks to address these sorts of problems by 
requiring that non-Indians with criminal child abuse charges be 
reported to the State and by requiring a study of how 
jurisdictional differences hinder the reduction of child abuse. 
We also support the bill's expansion of coverage by including 
family violence and child abuse, allowing Indian Health 
Service's treatment grants for all child abuse victims and 
making the Justice Department a part of the Regional Resource 
Centers.
    We also applaud the clarification that tribal 
responsibilities under 638 contracts include cooperation and 
reporting on abuse cases, training child protection worker 
safety and improved data collection.
    More than anything else, the act itself and its funding 
must be reauthorized. Addressing child abuse and family 
violence is very labor intensive. Our police, our courts, our 
prosecutors, our youth services and our medical services are 
all involved but Child Protective Services must tie it together 
and provide a tremendous range of functions. One on one care 
and attention often from specialists is essential. At Warm 
Springs, our CPS capacity that delivers those services is 
severely strained if not becoming broken.
    We have a staff of just 15 including four cases workers who 
must each handle more than 110 cases a year. We need assistance 
almost across the board.
    I am sure other tribes across Indian country have similar 
problems. Child abuse and family violence are silent and 
generally out of the public eye but they are devastating to our 
communities. Consequences are long lasting and far reaching. 
This is an issue that must be addressed and passage of S. 1601 
is essential to that task.
    Thank you, Mr. Chairman. This concludes my testimony.
    [Prepared statement of Mr. Brunoe appears in appendix.]
    The Chairman. Thank you.
    Mr. Cross.

 STATEMENT OF TERRY CROSS, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
            CHILD WELFARE ASSOCIATION, PORTLAND, OR

    Mr. Cross. Mr. Chairman, I am Terry Cross. I am the 
executive director of the National Indian Child Welfare 
Association located in Portland, OR.
    Thank you for inviting me to provide this testimony in 
support of reauthorization of the Indian Child Protection and 
Family Violence Prevention Act. I am submitting full written 
testimony for inclusion in the record.
    The Chairman. Fine.
    Mr. Cross. The National Indian Child Welfare Association is 
a national, private, non-profit organization, a membership 
organization of tribes and tribal child welfare workers and 
tribal child protection workers that provides support to those 
workers and tribes who are providing these services in the 
field with training, technical assistance, advocacy and 
research.
    You mentioned in your opening remarks what we call the 
natural system of child protection that has existed amongst our 
people for generations. This historical framework still helps 
support our families and those sacred teachings about children 
being gifts of the Creator are still very central to our way of 
life and our extended families. If it weren't for those, this 
problem would be even worse than it is. In a few minutes I will 
come back to talking about how those natural systems can be 
supported.
    Those natural systems of child protection have been broken 
down in the context of substance abuse, poverty, interrupted 
parenting, removal and oppression and we all know that one of 
the major assaults on Indian people was the removal of the 
authority and capacity to protect our own children. I think 
Chief Joseph said in his remarks, ``Let me gather the 
children.'' Our tribal leaders of the past knew the children 
were at the top of the list. There is no expression of tribal 
sovereignty more important than the protection of your own 
children.
    What has happened historically is that the sacred authority 
to protect children has been limited and constricted by Federal 
policy. Where tribes should be the agent of statutory authority 
for the investigation and treatment of child abuse, instead 
today we have a patchwork quilt, a tangled web of complex 
Federal Indian policy and Federal child welfare policy that 
overlap to leave our children out of the configuration of 
services. To give you an example of some of that complexity, 
you heard here today that because of the Dawes Act, when 
reservations are checkerboarded, you sometimes need a guidebook 
to know who has authority to investigate which cases. Because 
of Public Law 280, you have to have intergovernmental 
agreements just to know who has jurisdiction in which cases, in 
which States. CAPTA, the Child Abuse Prevention and Treatment 
Act that provides funding to States in this area of child abuse 
leaves out tribes completely.
    My testimony goes into depth in this area but what I want 
to say about this tangled web is it has a lot of consequences 
and serious consequences. One of those is there is no good data 
about child abuse in Indian country. The number you have here 
of 1 in 30 kids abused is the best information we have but we 
know that it only accounts for probably 61 percent of the cases 
in the country. You can add another 40 percent probably on top 
of that 1 in 30.
    Part of that untold story is the amount of this issue 
attributable to substance abuse. We know that at least 65 
percent of child abuse cases are substance abuse related. We 
know when you single out the neglect cases, that goes much 
higher, as high as 83 percent. We also know the term child 
abuse lumps together several different items; neglect, child 
abuse and child sexual abuse, and that child neglect actually 
accounts for about 83 percent of those overall numbers. When 
you look at the relationship between child neglect, poverty and 
substance abuse, you start to see why we have such serious 
problems.
    In addition to that, when we are taking a look at how the 
numbers play out, the numbers for child sexual abuse are 
actually somewhat lower than mainstream society as best we can 
tell. The numbers for child abuse and neglect vary by community 
but a surprising piece of information is that most child deaths 
in Indian country are not the result of abuse, but are the 
result of neglect. Our kids are three times more likely to die 
of accidents than any other children in the country. The Indian 
Health Service has not addressed this issue at all.
    It is important for us to keep in mind that these 
statistics have important social impacts and you have heard 
several of those talked about, mental health, juvenile justice, 
family violence, and other areas. Basic to that, -is the impact 
on the very development of our communities themselves, the 
development of infrastructure, the economic development, the 
impact of life long suffering of children who don't get enough 
medical care, children who don't get treatment for serious 
depression or for family violence, being victims of family 
violence, the costs are very high.
    The consequence of this overlapping, tangled web I 
mentioned is a very confused set of jurisdictions with unclear 
roles and reporting problems. One of the reasons we don't have 
good data is because there is no central place for data to be 
reported. The national NCANDS database is a database that 
records all cases of child abuse reported to States for the 
purposes of tracking how many and where. Indian data does not 
go in there unless the State has provided the service. If the 
tribes have provided those services, then the data doesn't go 
in there. It may get reported to the Bureau of Indian Affairs 
but the BIA does not report to the NCANDS database and the 
numbers you have here on the wall come from the NCANDS 
database. That is why I say that 40 percent of the cases out 
there are not getting counted.
    Another problem is that children end up not getting 
protected. We have children in situations where there are no 
services, where people point at each other thinking the other 
one should be doing it. I want to point out that in child 
welfare policy, it is well known that somebody has to be 
responsible and the entity with statutory authority is the 
place for that responsibility to lie. We know from our work 
around the country that when tribes exercise and are empowered 
to exercise that statutory authority, then things happen. The 
tribe can negotiate those local agreements to overcome this 
tangled web. The tribes should be leading the child protection 
teams and not the Federal agencies because the Federal agencies 
do not have statutory authority. If the tribe doesn't want to 
provide the services, they should be able to delegate that 
authority to someone else and make that decision themselves.
    Again, I reiterate that there is no expression of 
sovereignty more important than the protection of children. 
That goes for both the criminal and civil side and the only 
meaningful solutions to the problems pointed out by Chairman 
Brunoe pointed out are local solutions, agreements and 
protocols and cross deputizations driven by strong tribal 
authority. That strong tribal authority only can come through 
funding. We need programs that are non-discretionary, that are 
funded to allow tribes to operate the very basics of child 
protection. In this very complex arena, tribes need training 
and technical assistance. They need to have access to 
culturally designed prevention and intervention strategies and 
those are growing around the country. Those need to be shared 
with one another.
    We also need to have the capacity to do child abuse 
prevention activities. Every State in the Nation has a 
children's trust fund that funds child abuse prevention that 
the Federal Government matches under CAPTA. Tribes don't have 
access to those dollars unless they go hat in hand to States 
and apply for a grant like every non-profit in a State. There 
needs to be a Tribal Indian Children's Trust Fund established 
so that tribes can do child abuse prevention.
    We need to clarify and simplify the background checks and 
support it. Right now, it is an unfunded mandate. We need to 
reconcile the minimum definitions in this Act with the minimum 
definitions in CAPTA.
    We support the provisions as proposed. We think S. 1601 is 
on the right track but we also want you to consider making sure 
the tribes have the funds to operate the programs. It was 
disappointing for me every year when I go to the Appropriations 
Committee and to see neither the Bureau of Indian Affairs, nor 
the Indian Health Service, budget requests funding for this 
legislation. We can't continue to have our children treated 
this way to have a Federal policy that says they should be 
protected but have it be empty and in name only on paper. 
Without the appropriations to follow up and provide the 
services, it is meaningless.
    Thank you.
    [Prepared statement of Mr. Cross appears in appendix.]
    The Chairman. Thank you.
    Let me start with you, Mark. I was amazed that you had 
somebody down there that in a period of 7 or 8 years, sexually 
abused over 100 Hopi kids. Where is that person now?
    Mr. Lewis. I understand he is still in Federal prison.
    The Chairman. He is in prison?
    Mr. Lewis. Yes.
    The Chairman. I visited Oraibi a long time ago and I noted 
with great interest that those cliffs are pretty high. Too bad 
this man got as far as prison, he should have been thrown off 
the edge.
    Mr. Lewis. They are pretty high.
    The Chairman. Mr. Brunoe, I am interested in the issue of 
inter-governmental cooperation. We certainly need everybody we 
can to be involved in this. You said you had 402 kids in 
protective custody and it was a 14-percent increase just from 
last year. To what do you attribute that huge increase in a 
year?
    Mr. Brunoe. The noted increase is coming from substance 
abuse.
    The Chairman. Substance abuse. Is it the crude stuff like 
paint and ``canned heat,'' nail polish, things like that? Is 
that the problem you have at Warm Springs with substance abuse?
    Mr. Brunoe. I think it is the more readily available meth 
labs that are available now in different areas that easily put 
this stuff on the street. Since we live on the main highway 
that goes from Portland, OR, the major metropolitan and the 
State of Oregon, through our reservation on the way to Bend, 
OR, we get around 8,000 cars a day that go through our 
reservation. So easily some of that stuff is flowing through 
our reservation on the way to Bend.
    The Chairman. You heard Dr. Grim testify about some of the 
forensic exams that can be done, some of the people they have 
working in those areas. Are those components with the Indian 
Health Service been of value to your tribe when you deal with 
the components of child abuse?
    Mr. Brunoe. Not responding directly to what Dr. Grim said, 
we have five HIS doctors in our wellness center there, the 
Indian Health Service clinic and one of the doctors there has 
been trained on some of the equipment. She is at the point 
where she is overtaxed in the number of child abuse cases that 
need the kind of investigation that goes on. Then we need to 
send our children to Bend, OR for more in-depth types of review 
and the waiting list is about 3 to 4 months long to get a child 
in there, to have them see a professional.
    The Chairman. 3 to 4 months?
    Mr. Brunoe. 3 to 4 months.
    The Chairman. For a youngster, that is a lifetime in 
remembering some of the things that happened. You said each of 
your case workers handles 110 cases a year, about one every 
three days is a new case to deal with?
    Mr. Brunoe. Right.
    The Chairman. How do you balance that with ensuring the 
safety of the child protection workers? That is a high 
caseload.
    Mr. Brunoe. Talking to our CPS manager that runs that, they 
do it with a lot of overtime, work beyond your regular 8 hour 
days and they know they are pushed to capacity. Since the 
Federal funds we get for the 4(e) moneys come through the State 
to the tribes, we are very careful to make sure when we go 
through our audit from the Federal Government, that we are 
doing everything that is required of the Federal Government 
along with the State because if they find a finding, we could 
end up hurting the State, so the State of Oregon and the Warm 
Springs Tribe work closely to make sure our case reviews are 
done carefully, that the foster parents are qualified, that the 
foster homes are qualified.
    It also reaches to the tribal council chambers where not 
long ago I had a tribal member come to me who was having their 
grandchild removed from them because of the condition of the 
home and she wanted me to override that. I explained to her 
that if she loved her grandchild, she would go back and take 
care of the issue of what the court and the child protective 
services wanted, and that I wasn't going to, neither was the 
tribal council, tell them what to do and that is difficult to 
do.
    The Chairman. Did it work?
    Mr. Brunoe. Yes; it worked because she spent the weekend 
doing what they asked her to do for 4 months.
    The Chairman. She didn't initiate a recall, huh?
    Mr. Brunoe. No; not yet.
    The Chairman. A lot of times we think in terms of 
additional resources. The code word for resources, and I 
shouldn't say resources but the code word for money in many 
cases around here, as you know, and I know we are not doing a 
good enough job of providing enough money for a lot of the 
problems we have in Indian country. Is there anything you could 
speak to or know about that would help in this case that does 
not deal specifically with more Federal funding?
    Mr. Brunoe. Not at the moment, Mr. Chairman, but if I do, I 
will forward it.
    The Chairman. If we do a data collection reporting system, 
should that include training of tribal employees or would that 
be effective?
    Mr. Brunoe. That would be important because gathering the 
data is something that is essential to funding eventually and 
it stabilizes the findings which I know is lacking across 
Indian country.
    The Chairman. Thank you.
    Mr. Lewis, I understand the Hopi Children's Code has been a 
model code for many Native American communities to follow. When 
you set that up, did your tribe invite Federal or State 
agencies with any particular expertise to do that or did you do 
it with your own tribal resources?
    Mr. Lewis. The code was being developed when I was still on 
the line so I wasn't able to necessarily be a part of that.
    The Chairman. You were where?
    Mr. Lewis. I was still on the line providing clinical 
services but what I do remember is that the local Federal and 
tribal attorneys involved with our cases were a part of 
development of that code. I think it is very related to the 
Chairman of the Warm Springs Tribe, and that was done with 
tribal resources and there were no resources that the tribe had 
to do that. When the code was eventually passed, if you look at 
the written testimony provided to your office, you will see the 
tribe made a decision even I passed its own code, we didn't 
know how to necessarily enact it because we didn't have any 
money. We ended up doing that with our BIA Social Services 
funding because there was no funding to implement child 
protective services, part of the code, actually. I can leave 
the Hopi Children's Code here if you want it.
    We made that decision but we made that decision at the risk 
of impacting other important social services like services to 
the developmentally disabled, children and adults as well as 
substance abuse and chemically addicted populations.
    The Chairman. Chairman Brunoe said they have an average of 
110 cases a year. What is the Hopi workload?
    Mr. Lewis. We have two CPS investigators carrying caseloads 
of about 30 apiece.
    The Chairman. Per year?
    Mr. Lewis. No; at any given time. The issue with that is 
that child protective services is a rather burdensome process, 
so our efficiency is not as good as it could be because we 
simply need more child protective services workers, in addition 
to just trying to handle the ICWA cases that come to our agency 
which we don't have a worker which we are working on 
developing.
    The Chairman. Based on your experience with what is 
considered a model of this children's code, has your 
relationship in working with Federal agencies been good?
    Mr. Lewis. I like to believe that we at the Hopi Guidance 
Center have really good relations with our State and a lot of 
that has to do with approaching the States with a certain 
attitude but that doesn't mean there aren't certain barriers 
within the States. What I have found in my dealings with the 
State is they didn't know how to work with tribes and when they 
were willing and ready to work with tribes, they haven't done 
enough of it so we had to really form a good collaboration.
    We are also the only tribe in Arizona to have a 4(e) 
agreement with our State. We are assuming the TANF program 
under the guidance center with our State. We are also a mental 
health provider with our State system as well as a Medicaid 
provider, so we have pretty good experience working with the 
State but it hasn't come without its barriers because they 
simply don't know how to work well with tribes.
    The Chairman. That is rather surprising considering the 
number of tribes in Arizona and the long history of Indian 
people since there has been a State of Arizona.
    Based on your experience, have there been any particular 
Federal barriers to what you are trying to do?
    Mr. Lewis. As you mentioned before, one of them is having 
the unfunded mandate so that puts us in the position of trying 
to be as creative as possible. One of the ways we have done 
that by obtaining resources like through the State mental 
health system and through being very creative and strategic 
with our funding that does come down from the Bureau and how we 
utilize our surplus but that's certainly been a challenge.
    I think related to what the chairman and particularly what 
my colleague, Terry Cross mentioned, you mentioned a good point 
about is funding the answer to everything. Well, it is the 
answer to a lot of things but not everything. When a lot of 
this legislation has come down, we don't believe as a tribe, 
and it is in our written testimony, that enough clarity is 
provided to the Bureau and the IHS in helping to work together 
collaboratively to make these Acts happen. These are two of the 
major and primary overseers of services and regulation in 
Indian country and they are still not in a position where they 
are collaborating and sharing information as well as they 
should be.
    It is wonderful to see my colleagues, Dr. Grim and Dr. 
Perez who I know very well, Larry Blair and these folks here 
sitting at the table but that is not indicative of how it is 
day in and day out at our levels, the Bureau and the IHS 
communicating and collaborating together and encouraging the 
sharing of Federal resources. There is simply not enough of 
that coming from those entities.
    The Chairman. Dr. Grim is listening very intently back 
there, I notice.
    This bill, S. 1601, requires a study of the impediments to 
reducing child abuse in Indian communities. Your testimony 
certainly supports this idea. What role do you envision the 
tribes playing in the study?
    Mr. Lewis. There are a couple things I see as the role of 
the tribes being involved in the study. One of them is to act 
as a principal, if you will, to be able to help guide what some 
of the research issues are and we are providing an ongoing role 
in the consultation or any sorts of committees that you usually 
have when you are doing studies and evaluations.
    I also think some money needs to come now to encourage 
tribes and encourage the Bureau and the IHS to allow tribes to 
be creative in how they can develop better and more expanded 
programs to meet the specific needs of its population and the 
problems we are seeing associated with child abuse.
    The Chairman. I have many Hopi friends and have visited a 
few times down there. They are very, very traditional people, 
very in tuned with their religious beliefs. Do you feel that 
culturally sensitive programs are effective in assisting Indian 
children and their families, especially in dealing with 
sensitive issues like violence and abuse?
    Mr. Lewis. Certainly I agree and the provision that you are 
proposing in your legislation is important in all Federal 
programming that they take into account the cultural ways and 
mores and that they allow that as part of the regulation of 
those particular programs, not just with these particular 
programs and providing access to traditional healing but also 
if you look at the child welfare laws, the Federal legislation 
that comes down to our level, the Bureau only more recently has 
yet to take into consideration the family and kinship system 
and allowing that as a way for us to provide effective child 
welfare, mental health and substance abuse services. We are 
sometimes limited in the usage of our funding because they 
haven't fully taken into account our kinship system. By that, I 
mean about 95 percent of Hopi children moved from their homes 
are placed within relative homes or clan homes, if you will. 
Sometimes the Bureau won't allow us to provide funding to help 
provide food for that family because that is not ``under the 
Federal regulations.'' They have to be licensed as a foster 
home.
    Those are some of the ways where we need to allow the 
cultural practices to be allowed to be part of our actual day 
to day practice and that the funds follow that.
    The Chairman. There is no appeal or something that can be 
addressed in dealing with that problem, that they are not 
licensed as a home but they are still related and want to take 
care of those kids?
    Mr. Lewis. I am sure if Chairman Taylor was here, he would 
laugh and say that is why we sent Mark up here to kind of rebel 
rouse and I am sure my colleagues from the Bureau and IHS can 
attest to that. They are tired of hearing me at the regional 
levels.
    The Chairman. I am not tired of hearing it, I think it is a 
very good point.
    Mr. Lewis. So simultaneously I think our strategy is to 
come here and continue to advocate that but on behalf of our 
kids, we have done our best effort to try and encourage and 
influence families, the relative caretakers, to go ahead and 
get the foster care license even though they don't want it. 
They just want to take care of their kin but we have had to 
work very hard to encourage them to just get licensed so we can 
provide you with some funding. We will continue to advocate 
these issues here as well.
    The Chairman. Is it difficult to get licensed?
    Mr. Lewis. Sometimes it is and you have to go through a 
number of background checks and families just want to take care 
of their kids and need money to help pay for food. I those are 
wonderful questions I am glad you asked. If you look in our 
written testimony, to bring home the point of social services, 
people have forgotten, at least for Arizona, 638 tribes are the 
primary funder, the primary regulator of child welfare 
services. They have come out with these new regulations in 
2000. The problem is in theory, they are okay but they never 
consulted Indian Health Services and never consulted Bureau of 
Education and they are requiring us to have all those people 
help fund a portion of a child's cost if they have to go into 
residential treatment but those regulations are not binding on 
IHS, nor are they binding on Education and both will tell you 
they have no money, yet we are still out of compliance with the 
Bureau because of those specific social services regulations. 
Again, it is an example of a lack of meaningful consultation 
and collaboration between those three entities and then 
imposing it on tribal programs such as ours. It is very 
difficult to be in compliance with those. The money, we can't 
use it.
    The Chairman. That means in some cases a youngster would be 
taken out of the family and would be put into a home as a first 
priority but the family that would want to take care of him 
often cannot? I am not a child psychologist but it wouldn't 
seem to me that is in the best interest of the child.
    Mr. Lewis. It is not in the best interest of the child but 
sometimes it is in the best interest of the child to put 
somebody in a professional treatment facility because the 
extended family are kin that are willing to take them in are 
maybe as dysfunctional as the family they come from. That is 
where it is key and it is critical.
    The Chairman. Thank you for that insight.
    Terry, thank you for your testimony. In your written 
testimony, your concerns related to the data reporting of child 
abuse and neglect and recommended technical assistance provided 
in this area. From your perspective, what infrastructure do 
tribes need to develop an effective reporting and data 
collecting system?
    Mr. Cross. First of all, it is access or the capability to 
have a management information system to track and record that 
information and then report it so the development of 
technology. Also, the technical assistance with which to 
develop their own fields for those management information 
systems, the words they use for how they are defining abuse and 
neglect or how they are defining family an all those are things 
that have to be developed locally but in a framework that can 
be translated to a central database. We are working on a 
project funded by ACF to demonstrate with five tribes how that 
can be done.
    The Chairman. You say in your testimony that about 61 
percent of the incidents are reported to a national database. 
Is that correct?
    Mr. Cross. Those are the cases that make it into the NCANDS 
database through the State systems.
    The Chairman. So you do support having Indian children 
reported to the NCANDS database?
    Mr. Cross. I do because that is the central database that 
measures trends nationally. To create a system parallel to that 
would be one more layer. It is an ongoing, funded program in 
the Federal Government that Indian tribes should have access to 
just like States.
    The Chairman. You are from Portland, correct?
    Mr. Cross. That's right.
    The Chairman. Are there data available to the extent of 
Indian kids living in Portland, urban Indian kids?
    Mr. Cross. There is not good data available for urban 
Indian children. There is a tremendous under count in the urban 
centers largely because Indian children are often not 
identified even for purposes of ICWA in State systems.
    The Chairman. Also, in your testimony you mention that some 
tribes have a memoranda of understanding with Federal and State 
agencies to ensure that all appropriate agencies respond to 
incidents of child abuse. Do most in your State have that 
agreement?
    Mr. Cross. They do. As I mentioned the local protocol 
agreements, when you have a reservation that is checkerboarded 
or where you in a 280-State and there is the sharing of 
jurisdiction, there are tribal police, county sheriffs and the 
FBI, if those agencies don't come together, put down on paper 
and sit down at the table together and discuss who is going to 
do what when, historically cases of abused children just fall 
through the cracks and nobody responded. Unfortunately there is 
not enough of those agreements because they are complex to put 
together and they end up being caught up in other kinds of 
politics like water rights, taxation or just getting people to 
sit down at the table with one another to work out those things 
can be very difficult.
    The Chairman. In some cases, we have looked into trying to 
consolidate Federal programs to decrease duplication to get a 
better result for the money we have appropriated. Are there any 
other Federal programs that you think could be a model that 
would be applicable to abuse, neglect, alcoholism related 
problems that we could look at here?
    Mr. Cross. Earlier you mentioned resources in your 
questions. One of the major issues is if we just had access to 
the entitlements that all children have, title 4(e) being the 
major one. As you know, we have a bill pending right now to get 
tribes direct access to Title 4(e). That would be the biggest 
thing to happen to tribal child welfare since the Indian Child 
Welfare Act.
    It would provide resources to tribes and those tribes who 
have agreements are tapping into those resources somewhat but 
many tribes only get the foster care payment and don't get the 
caseworker dollars, don't get the recordkeeping dollars, don't 
get the training dollars associated with 4(e). If that alone 
was corrected, it would make a huge dent in this.
    The formula distribution of funds under CAPTA to States is 
very small. I understand recently two States turned back their 
money because the mandates were too stringent for them to take 
for $200,000. I think HHS ought to give any money turned back 
by States to the tribes to do prevention work.
    The major concern I would have in consolidating funding 
across programs is that when it is child abuse and neglect, you 
have to be careful to ensure the provision of that service for 
children and somehow protect those dollars from being drained 
off into other important priorities of the tribe.
    One of the ways in general that the Federal Government 
enforces policy is through its power of the purse strings and 
saying you can have this money if you, meet certain conditions. 
As a child advocate, I need to say it is important to say to 
everyone, you can have these Federal dollars if you protect 
your children. I want to make sure in any creative solutions we 
come to, that those services currently available and any future 
services might be available for children are protected in some 
way.
    The Chairman. I think that is all the questions I have. 
Other members may have questions and they will submit them in 
writing to you. Senator Inouye probably does.
    I appreciate your being here and as I told the first 
witnesses, if you have some suggestions on how we can improve 
this bill--and we have been jotting down a few of them that we 
got from your testimony today--I certainly would appreciate 
your supplying them. We are going to keep open the record for 
about 2 weeks and if you could forward any suggestions to us, 
we are going to try to mark this bill up in October as I 
mentioned.
    Thank you so much for being here and the committee is 
adjourned.
    [Whereupon, at 3:10 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii, 
               Vice Chairman, Committee on Indian Affairs

    I am pleased to join my chairman today in receiving testimony on a 
bill to reauthorize the Indian Child Protection and Family Violence 
Act. Surely, there can be no more precious resource than our children.
    It is essential that we work together to assure that the children 
of Indian country are protected from abuse, and that we continue to 
improve upon our data collection efforts as well as our ability to 
track those who have abused children in the past and who are looking 
for havens in Indian country, so that we may 1 day be able to eliminate 
this scourge from the lives of those we hold so dear.
    I am glad to see that the departments who will present testimony to 
the committee today support the reauthorization of this important act.
                                 ______
                                 

Prepared Statement of Garland Brunoe, Chairman, Confederated Tribes of 
                 the Warm Springs Reservation of Oregon

    Mr. Chairman, members of the committee, I am Garland Brunoe, 
chairman of the tribal council of the Confederated Tribes of the Warm 
Springs Reservation of Oregon. Thank you for the opportunity to testify 
today in support of S. 1601, the Indian Child Protection and Family 
Violence Prevention Reauthorization Act of 2003.
    In presenting this testimony, I would like to acknowledge Warm 
Springs Tribal Judge Lola Sohappy, who is very involved in child 
welfare on our reservation, an active member of the National Indian 
Child Welfare Association, and who has been communicating with your 
staff regarding this legislation.
    The 650,000 acre Warm Springs Reservation in north Central Oregon 
is the home of about 3,287 of our 4,160 tribal members. Additionally we 
estimate about 950 non-members also reside on our reservation. Within 
our residential population, 1,617 of our tribal members, or close to 40 
percent, are younger than 18 years old.
    Like many reservations, our communities are rural, and individual 
residences are often isolated. Economic opportunities are limited, and 
unemployment and poverty are well above national averages by almost any 
measure. So, too, are substance abuse and violence, including family 
violence. When much of your population is young, that violence all too 
often involves children.
    Unfortunately, this applies at Warm Springs. In 2002, 402 Warm 
Springs children were placed in custody of Warm Springs Child 
Protection Services [CPS] by tribal court order. This is 25 percent of 
all our children. For 2003, we project 460 children will be in the 
custody of CPS, a 14-percent increase from 2002.
    Our tribe is doing all we can to address this very serious issue. 
While our basic capacity in this field is strained, we are trying to 
make use of our unique circumstances.
    Our population is not large, and because Warm Springs is exempt for 
Public Law 280 and our reservation is almost a solid block of tribal 
trust land, we exercise exclusive jurisdiction over our tribal child 
welfare cases. We have our own Child Protective Services agency, and do 
not have to rely on the State for case management, investigations, and 
other services. Without the competing demands of State regulation, we 1 
are able to craft our policies and actions in a manner that is 
sensitive to the needs of our own community.
    While we exercise our own jurisdiction, we do try to work closely 
with the State of Oregon. Warm Springs is one of the few tribes 
nationwide that has developed a tribal-State title IV-e foster care 
maintenance payment agreement with the State of Oregon that allows the 
tribe to receive Federal funds for maintenance payments for children 
placed in foster care. The agreement also allows the tribe to receive 
an administrative match for services, training, and associated expenses 
for children qualifying for IV-e support. This allows the tribe to 
participate on the same footing as a State in developing and 
maintaining a foster care program for tribal children rather than 
placing them in the custody of the state for these services.
    Warm Springs still has an array of jurisdictional issues with which 
we must deal. Criminal child abuse actions by non-Indians must be 
addressed by the State. When Federal crimes are specifically 
identified, be they Indian or non-Indian related, the Federal Bureau of 
Investigation must be called in. And because Warm Springs children 
attend local public schools, any child abuse or neglect issues 
identified there are reported first to, the county, and only thereafter 
to our Child Protective Services or the Warm Springs Police Department.
    Jurisdictional issues are complicated and not easy to resolve, but 
improved communication and coordination can help. Accordingly, we 
strongly support section 4 of S. 1601, which would require tribes to 
report non-Indians to State law enforcement agencies in abuse or family 
violence occurrences where a criminal violation is indicated.
    For similar reasons, we also support section 5, directing a study 
of impediments to the reduction of child abuse, including 
intergovernmental and Jurisdictional impediments.
    We strongly support the various ways in which the act is expanded. 
Section 3 extends the ``child abuse'' definition to children subjected 
to family violence. Section 6 includes Federal and tribal contract and 
volunteer personnel in background checks, and makes those 
investigations tougher. Section 7 extends applicability of IHS 
treatment grants to all child abuse victims, not just sexual abuse 
victims. And the addition of the Department of Justice in the staffing 
and operation of the Regional Resource Centers, as provided in section 
8, will advance communication, cooperation, and successful prosecution 
of child abuse matters.
    The clarification and extension of responsibilities are also 
applied to tribes, which we agree is essential. Section 9 requires that 
tribes operating their own Child Protection and Family Violence 
Prevention program under a contract from the BIA must clearly designate 
responsibility for child abuse case coordination and reporting, and for 
the treatment and prevention of child abuse. The section further helps 
tribally operated programs by authorizing tribes to provide training 
for any required child protection certifications, to help ensure the 
safety of child protection workers while on the job, and to improve 
data systems for case and program monitoring and evaluation. Annual 
tribal program reports to the Interior Secretary would also have to 
include information on training, threats to worker safety, and 
community outreach and awareness efforts.
    But more than anything else, the overall reauthorization of the 
Indian Child Protection and Family Violence Prevention Act, and its 
funding, is essential.
    Child abuse and family violence continue to devastate Indian 
communities. Because these problems tend to occur in private and the 
victims are frightened and silent, they do not attract much public 
attention. But their consequences are far reaching and long lasting. At 
Warm Springs, as I noted earlier, children in custody of our Child 
Protection Services this year are projected to increase by 14 percent 
from 2002. For last year, 2002, our Police Department reported 338 
child abuse and 50 family violence cases opened for investigation for 
criminal charges, an increase of 29 percent from 2001 for these two 
types of violence. I should note that some of this increase should be 
attributable to improved data collection started in 2002. But in any 
event, whether the real increase might have been 10 percent or 15 
percent or more, the fact remains we experienced a significant jump in 
the level of child abuse and family violence. At least at Warm Springs, 
and most probably nationwide, child protection and family violence 
prevention absolutely requires increased attention and assistance.
    Because child abuse and family violence are often hidden from view 
and their consequences can be so personal and profound, child 
protection and the prevention of associated family violence is very 
labor intensive. Abused or neglected children require attentive and 
careful handling. Their family situations can often be explosive. At 
Warm Springs, in addition to our Child Protective Services agency, 
child protective activities significantly involve the tribal police, 
the tribal court, tribal prosecution, community services, and medical 
personnel including mental health practitioners and physicians 
experienced in child abuse forensics.
    But the leading agency that ties these diverse function together is 
Child Protective Services. CPS has a multi-faceted and complicated 
task. It must investigate child abuse charges, it must remove children, 
it must temporarily shelter abused children, and find short term and 
long term foster residences, which must be monitored. Currently, Warm 
Springs CPS maintains 40 foster homes. CPS must provide for the direct 
needs of the child, including medical, counseling, and treatment needs, 
the child's clothing and education, and even, if needed, transportation 
to appointments. And CPS is also responsible for working to reunite the 
family, including all family counseling activities. CPS must be engaged 
with the prosecution of child abuse-related criminal charges. And 
throughout all this, they must meet rigorous reporting requirements. At 
Warm Springs, where CPS will have a projected 460 children under its 
custody this year, the regular CPS staff totals about 15 personnel, 
including 4 case workers, each of whom must handle more than 110 cases 
a year. We also engage seven full time Protective Care Providers to 
operate our 24 hour Emergency Shelter.
    Clearly, our child protection capacity at Warm Springs desperately 
needs attention and assistance, almost across the board. But based on 
our own circumstance, areas of particular need include an additional 
Warm Springs police investigator and tribal prosecutor to develop and 
try solid child abuse cases against adults. We need improved access to 
examinations and forensic interviewing in sexual abuse cases, and 
because of the traumatic nature of child abuse, mental health and 
follow-on care need to be significantly expanded. Juvenile Services 
needs support. And we need training for our CPS staff. We also need a 
means of capturing and interpreting data.
    Mr. Chairman, this is a long list just from our tribe. But it 
serves to highlight the level of attention that Indian child protection 
and family violence prevention needs nationwide. S. 1601 is an 
essential step in meeting that challenge, and the Warm Springs Tribes 
support it and urge the committee to approve it.
    Thank you. That concludes my testimony. I shall be pleased to 
respond to any questions.

[GRAPHIC] [TIFF OMITTED] T9643.001

[GRAPHIC] [TIFF OMITTED] T9643.002

[GRAPHIC] [TIFF OMITTED] T9643.003

[GRAPHIC] [TIFF OMITTED] T9643.004

[GRAPHIC] [TIFF OMITTED] T9643.005

[GRAPHIC] [TIFF OMITTED] T9643.006

[GRAPHIC] [TIFF OMITTED] T9643.007

[GRAPHIC] [TIFF OMITTED] T9643.008

[GRAPHIC] [TIFF OMITTED] T9643.009

[GRAPHIC] [TIFF OMITTED] T9643.010

[GRAPHIC] [TIFF OMITTED] T9643.011

[GRAPHIC] [TIFF OMITTED] T9643.012

[GRAPHIC] [TIFF OMITTED] T9643.013

[GRAPHIC] [TIFF OMITTED] T9643.014

[GRAPHIC] [TIFF OMITTED] T9643.015

[GRAPHIC] [TIFF OMITTED] T9643.016

[GRAPHIC] [TIFF OMITTED] T9643.017

[GRAPHIC] [TIFF OMITTED] T9643.018

[GRAPHIC] [TIFF OMITTED] T9643.019

[GRAPHIC] [TIFF OMITTED] T9643.020

[GRAPHIC] [TIFF OMITTED] T9643.021

[GRAPHIC] [TIFF OMITTED] T9643.022

[GRAPHIC] [TIFF OMITTED] T9643.023

[GRAPHIC] [TIFF OMITTED] T9643.024

[GRAPHIC] [TIFF OMITTED] T9643.025

[GRAPHIC] [TIFF OMITTED] T9643.026

[GRAPHIC] [TIFF OMITTED] T9643.027

[GRAPHIC] [TIFF OMITTED] T9643.028

[GRAPHIC] [TIFF OMITTED] T9643.029

[GRAPHIC] [TIFF OMITTED] T9643.030

[GRAPHIC] [TIFF OMITTED] T9643.031

[GRAPHIC] [TIFF OMITTED] T9643.032

[GRAPHIC] [TIFF OMITTED] T9643.033

[GRAPHIC] [TIFF OMITTED] T9643.034

[GRAPHIC] [TIFF OMITTED] T9643.035

[GRAPHIC] [TIFF OMITTED] T9643.036

[GRAPHIC] [TIFF OMITTED] T9643.037

[GRAPHIC] [TIFF OMITTED] T9643.038

[GRAPHIC] [TIFF OMITTED] T9643.039

[GRAPHIC] [TIFF OMITTED] T9643.040

[GRAPHIC] [TIFF OMITTED] T9643.041

[GRAPHIC] [TIFF OMITTED] T9643.042

[GRAPHIC] [TIFF OMITTED] T9643.043

[GRAPHIC] [TIFF OMITTED] T9643.044

[GRAPHIC] [TIFF OMITTED] T9643.045

[GRAPHIC] [TIFF OMITTED] T9643.046

[GRAPHIC] [TIFF OMITTED] T9643.047

[GRAPHIC] [TIFF OMITTED] T9643.048

[GRAPHIC] [TIFF OMITTED] T9643.049

[GRAPHIC] [TIFF OMITTED] T9643.050

[GRAPHIC] [TIFF OMITTED] T9643.051

[GRAPHIC] [TIFF OMITTED] T9643.052

[GRAPHIC] [TIFF OMITTED] T9643.053

[GRAPHIC] [TIFF OMITTED] T9643.054

[GRAPHIC] [TIFF OMITTED] T9643.055

[GRAPHIC] [TIFF OMITTED] T9643.056

[GRAPHIC] [TIFF OMITTED] T9643.057

[GRAPHIC] [TIFF OMITTED] T9643.058

[GRAPHIC] [TIFF OMITTED] T9643.059

[GRAPHIC] [TIFF OMITTED] T9643.060

[GRAPHIC] [TIFF OMITTED] T9643.061

[GRAPHIC] [TIFF OMITTED] T9643.062

[GRAPHIC] [TIFF OMITTED] T9643.063

[GRAPHIC] [TIFF OMITTED] T9643.064

[GRAPHIC] [TIFF OMITTED] T9643.065

[GRAPHIC] [TIFF OMITTED] T9643.066

[GRAPHIC] [TIFF OMITTED] T9643.067

[GRAPHIC] [TIFF OMITTED] T9643.068

[GRAPHIC] [TIFF OMITTED] T9643.069


</pre></body></html>
